                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                           Inspection of the Somalia Unit,
                                              Embassy Nairobi, Kenya

                                             Report Number ISP-I-12-39, August 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State) and the Broadcasting Board of Governors).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                          i
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                            1
Context                                                  2
Executive Direction                                      3
Policy and Program Implementation                        5
  Reporting, Analysis, and Advocacy                      5
  Public Diplomacy                                       8
Resource Management                                     11
Consular Affairs                                        11
List of Formal Recommendations                          12
List of Informal Recommendations                        13
Principal Officials                                     14
Abbreviations                                           15




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   In its first year as an independent entity, the Somalia Unit has done an excellent job of
    providing information on developments in Somalia and in suggesting policy initiatives to
    Washington.

•   The Department of State’s (Department) lengthy process for approving travel hinders the
    ability of the Somalia Unit to play a role with the rest of the international community as
    Somalia approaches a period of political transition and as the U.S. Government seeks to
    incrementally increase its engagement in Somalia.

•   Realignment of responsibilities among the Special Representative to Somalia, his deputy, and
    the rest of the staff will improve the operation.

•   The Somalia Unit’s reporting has been productive and well sourced, but Washington would
    benefit from more analysis of the security and political risks that lie ahead.

•   The Somalia Unit is diligent in overseeing a large assistance program without a presence in
    the country, but there are vulnerabilities involving a cash assistance program that pays
    Transitional Federal Government (TFG) forces.

•   The public affairs section is taking a creative and entrepreneurial approach to reaching
    Somalis with public diplomacy messages and programs.

•   U.S. foreign policy objectives would be facilitated by a more collaborative partnership with
    Embassy Nairobi on issues involving both Kenya and Somalia, including outreach to the
    Somali diaspora in Kenya.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the Office of Inspector General (OIG) did not identify problems that need to be
corrected.

The inspection took place in Washington, DC, between April 9 and May 1, 2012, and in Nairobi,
Kenya, between May 2 and 29, 2012. (b) (6)




                                           1
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Context
        Somalia is a country of some 10 million people on the Horn of Africa that, despite its
modest size, has been a longstanding policy priority for the United States and the international
community. The country’s chronic instability has made it a haven for transnational terrorism,
piracy, and a threat to stability in the region.

        Somalia has lacked an effective central government for more than 2 decades. The
African Union Mission in Somalia (AMISOM) is deployed under a UN Security Council
mandate and consists largely of troops from Uganda and Burundi. With international support,
AMISOM and Somalia’s TFG have made advances against the terrorist group, al-Shabaab, and
significantly expanded the territory under government control over the last 2 years.

        The Kampala Agreement and other international accords call for the replacement of the
TFG by a constitutional government in August 2012. Fulfillment of the transition process is a
key U.S. objective. Al-Shabaab, which has ties to al-Qaeda, poses the greatest threat to the TFG
and the transition process. Al-Shabaab recently demonstrated its ability to strike inside
Mogadishu and security in much of the country remains fragile, with Puntland and Somaliland
enjoying considerably more security. Clan and regional rivalries also present challenges to the
establishment of a constitutional government that enjoys broad support.

        The United States does not have a permanent diplomatic presence in Mogadishu. The
Somalia Unit is a “shadow” mission, headed by the Special Representative to Somalia. It is
housed at Embassy Nairobi and with the establishment of the special representative position in
August 2011, reports on policy matters directly to the Assistant Secretary for African Affairs. At
the same time, the unit falls under the authority of the U.S. Ambassador to Kenya with regard to
security and administrative matters. The Somalia Unit has grown from a single person in 2007,
to the current staff of 15 employees, including 12 U.S. direct hires.

        Unit personnel have visited Somalia about twice a month since August 2011. The Under
Secretary for Management must approve all such visits. The approval process is lengthy, and
there is often not sufficient advance notice to allow unit staff to participate in international donor
meetings in Mogadishu. The Somalia Unit is working with the Department on plans to increase
U.S. engagement in Somalia with the eventual aim of reestablishing a permanent U.S. diplomatic
representation contingent when security conditions improve.

        The United States will provide about $393 million in foreign assistance for Somalia in
FY 2012, consisting of security, economic, and humanitarian assistance, as well as assessed
contributions to the UN peacekeeping budget. Security assistance, comprising $200 million, is
the largest part of U.S. foreign assistance. The Somalia Unit uses contractors and other means to
exercise oversight of the expenditure of foreign assistance funds.




                                            2
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The Special Representative reports to the Assistant Secretary for African Affairs on
matters relating to Somalia policy and programs but serves under the Chief of Mission to Kenya
for security and administrative purposes. In the approximately 1 year the unit has operated as an
independent unit, it has excelled in reporting on developments in Somalia and in suggesting
policy initiatives to Washington. Through its design and oversight of programs and policy
engagement, the unit has played a key role in advancing the completion of the UN roadmap for
the transition to a constitutional Somali Government. Its efforts have had a direct and positive
impact on AMISOM and TFG capacity to counter al-Shabaab, and to address the humanitarian
and reconstruction needs that have accumulated over 20 years of civil conflict. On issues related
to Kenya’s involvement in Somalia, Embassy Nairobi has taken the lead.

        The respective responsibilities of Embassy Nairobi and the Somalia Unit are clear in
principle but in practice the bilateral Ambassador does not set a tone that promotes collaboration,
and some elements of the embassy consequently do not adequately engage with the Somalia
Unit, especially in the areas of information sharing and report coordination. However, the unit
has productive relations with the U.S. Agency for International Development (USAID), the
Federal Bureau of Investigation, and other agencies. The unit and Embassy Nairobi’s political
section collaborate on démarches, and the unit receives excellent support from the management
section and the regional security office.

      The unit’s responsibilities for program management, policy advice, reporting, and
diplomatic engagement with international partners has grown significantly in recent years.
Washington clients are pleased with the unit’s performance across the span of its responsibilities.

         The OIG team nonetheless sees room for improvement in internal communication.
Despite regular staff meetings, unit members do not keep each other well informed about their
activities. Staff members often learn from third parties about a colleague’s meetings. Shared
calendars, broader sharing of information, and better communication at staff meetings would
strengthen unit performance and morale.

       Informal Recommendation 1: The Somalia Unit should implement steps to improve
       internal communication among staff.

        Staff portfolios contain redundancies and create unbalanced workloads across the unit.
The Special Representative and his deputy have substantially overlapping responsibilities. Some
administrative and planning functions, which are traditionally the responsibility of a deputy, have
devolved to the political/economic section counselor, which in turn impinges on the counselor’s
reporting responsibilities.

       Informal Recommendation 2: The Somalia Unit should review staff portfolios and
       reallocate responsibilities to eliminate redundancies, balance the workload, and increase
       efficiency.



                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Mid- and entry-level staff work very hard, but more active, frequent guidance from
experienced officers would minimize the amount of time spent on late-stage editing and would
contribute to staff professional development. The unit recognizes the need to make these
adjustments, and the OIG team is confident that it will do so.

        The Ambassador to Kenya initially excluded the unit from Nairobi country team
meetings; only during the inspection did he invite their participation. He continues to resist the
unit’s engagement of the Somali communities in Kenya, citing the absence of an approved chain
of command that would require the Special Representative to report directly to him. Elements of
Embassy Nairobi do not regularly coordinate reporting on Somalia with the unit, and thus do not
benefit from the unit’s unique contacts and experience.

        As Kenya prepares to bring its troops in Somalia under the command of AMISOM with
U.S. support, there is a clear imperative to share information that will produce more ample,
accurate reporting and effective U.S. security assistance to all AMISOM contributing countries.
The lack of full collaboration and coordination on the part of Embassy Nairobi has marginalized
the Somalia Unit’s role in supporting “rehatting” of Kenyan forces in Somalia under AMISOM,
which in turn has impeded the ability of the U.S. Government to assist Kenya as an AMISOM
participant. These challenges could be overcome through goodwill and collaborative leadership.

Recommendation 1: The Somalia Unit, in coordination with Embassy Nairobi and the Bureau
of African Affairs, should convene a working group on Kenyan engagement and interests in
Somalia that would include representatives of the Somalia Unit and appropriate embassy
elements, including the Defense attaché office, and would focus on enhancing collaborative
activities between the two missions. (Action: Somalia Unit, in coordination with Embassy
Nairobi and AF)

        The one entry-level officer in the unit participates actively in the Embassy Nairobi first-
and second-tour program, which in most cases received positive evaluations from the
participants. Morale within the unit is generally high, a reflection of the officers’ strong
motivation to accomplish the unit’s unique mission and of the U.S. interests at stake.




                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Reporting, Analysis, and Advocacy

       The Somalia Unit cultivates an extensive contact base in Somalia and the region to
produce frequent reporting of high quality. The Special Representative, his deputy, and the staff
of a combined political/economic section function as reporting officers. They surmount the
challenges of limited travel to Somalia by telephoning, traveling to regional capitals, meeting
with visiting Somalis, and maintaining close relations with the Nairobi-based UN Political Office
for Somalia (UNPOS) and third-country diplomatic missions. The unit does an excellent job of
drawing on a range of sources to explain to Washington the complicated and fluid situation in
Somalia.

        The unit has no language designated positions or language qualified officers. Most unit
officers communicate with Somalis in English or use locally employed staff interpreters. This is
a serviceable arrangement pending permanent U.S. representation in Somalia.

        Reporting appropriately focuses on the political process in Somalia, supported by an
international effort to establish a legitimate, constitutional government. Other topics of reporting
include updates on the military and humanitarian situations. The unit would like to do more
reporting on developments in Somalia’s semiautonomous regions as staffing and travel
constraints permit. Washington consumers would also welcome more analysis on risks to the
transition.

        Over the past year, the unit has established a record of policy innovation and operational
effectiveness. As a result of the unit’s initiative, Washington secured a UN Security Council’s
decision to ban the purchase of Somali charcoal in order to deprive al-Shabaab of a valuable
funding source. Washington is considering the unit’s recommendation to extend security
assistance to Somalia national security forces outside of Mogadishu. Strong relationships in
Somalia, timely reporting, and effective coordination with Embassy Nairobi’s legal attaché
recently enabled the successful rescue by U.S. forces of an American hostage and a Danish
hostage in Somalia.

Non-Record Reporting

       The unit uses working email to transmit much of its reporting on events and meetings that
inform U.S. policy. The unit does not use record email available in the Department’s State
Messaging and Archive Retrieval Toolset (SMART), and the staff is not informed about the
requirement to use record email to preserve the unit’s reporting in accordance with the Federal
Records Act and 5 FAM 443.

Recommendation 2: The Somalia Unit, in coordination with Embassy Nairobi, should provide
guidance to staff about the use of record email to report information that must be preserved in
accordance with Federal Records Act and Department regulations. (Action: Somalia Unit, in
coordination with Embassy Nairobi)


                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Child Soldiers

         The UN Secretary General’s annual report on Children and Armed Conflict names both
al-Shabaab and the TFG for recruiting and using child soldiers in violation of international law.
The UN Security Council requires that violators adopt action plans to end these practices, and in
2011, the UN Security Council expanded the criteria for sanctionable offenses in Somalia to
include recruitment or use of children in armed conflict. Continued TFG noncompliance would
put at risk international assistance, including possibly U.S. assistance.

        The unit has taken the initiative to collaborate with UNPOS to draft an action plan for the
TFG and has pressed the TFG on compliance. However, the unit has not assigned responsibility
for reporting on this issue. As a result, there has been no recent reporting on the state of
negotiations or on TFG practices.

       Informal Recommendation 3: The Somalia Unit should report on the use of child
       soldiers in Somalia and on negotiations concerning the Transitional Federal
       Government’s adoption and implementation of an action plan to end the practice.

Travel to Somalia

         Military advances against al-Shabaab, improvements to security in Mogadishu and
Somaliland, and the approaching transition to a national government have resulted in a growing
international presence in Somalia. These developments have allowed unit staff to make more
frequent visits to Somalia, now at a rate of about four per month. Such visits to Mogadishu,
however, are limited to day trips and restricted to the international airport. Given that the round
trip flight time is 6 hours, opportunities to engage contacts are limited. Travel to Hargeisa in
Somaliland includes overnight stays. In the past year, unit staff has managed only a single visit
to Puntland in northeast Somalia.

        The Department requires the unit to request approval 10 working days in advance of a
proposed visit. Additional time, sometimes days, are required for the unit, working with the
Embassy Nairobi regional security office, to develop a security assessment as part of the request
for travel. The Under Secretary for Management must approve all visits by unit staff to Somalia.

        The UNPOS has established a continuing presence in Mogadishu and several countries,
including the United Kingdom, are considering a permanent presence at the airport. Donor
meetings in Mogadishu, which are critical to sustaining progress on security and the political
transition, often convene on a few days’ notice. The lengthy travel approval process has
prevented U.S. participation in key multilateral discussions. Although the United States is the
largest provider of security assistance, the unit was not able to participate in several meetings in
Mogadishu addressing security matters.

Recommendation 3: The Bureau of Diplomatic Security, in coordination with the Somalia Unit,
Embassy Nairobi, and the Bureau of African Affairs, should assess and, if justified, recommend
to the Under Secretary for Management ways to accelerate the procedures for approving travel to
Somalia. (Action: DS, in coordination with the Somalia Unit, Embassy Nairobi, and AF)

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Foreign Assistance

        The United States will furnish about $393 million in assistance for Somalia in FY 2012,
comprising security, economic, and humanitarian assistance, as well as U.S.-assessed
contributions to the UN peacekeeping budget. Some of the funding streams come from accounts
designed for contingencies, which makes out-year planning difficult. The Special Representative
is engaging Washington to secure funding for security and development contingencies in the
event that developments on the ground lead to a permanent U.S. presence in Somalia and
relations with a constitutional government. He oversees the setting of assistance priorities and
programs and ensures proper monitoring by USAID staff.

        USAID’s Nairobi-based East Africa Regional office and the Somalia Unit have a
productive, collegial relationship in planning and implementing economic and humanitarian
assistance that USAID manages. About 80 percent of USAID’s East Africa regional funding is
devoted to Somalia.

       Within the unit, two contractors with military experience and extensive knowledge of the
region manage Department-funded security assistance totaling nearly $200 million in FY 2012.
Security assistance consists of training, equipment, supplies, and services to countries that
contribute troops to AMISOM and to the TFG forces. The unit implements these assistance
programs, through several contracts and grants that government technical monitors verify. These
monitors are third-country nationals based in Uganda and travel within Somalia to verify the
delivery of equipment and supplies. In addition, contracting officer’s representatives from the
Bureau of African Affairs visit Nairobi about twice a year.

        The unit’s contractors track assistance deliveries as best as they can through visits to
troop-contributing countries, donor meetings in Nairobi and Mogadishu, and reports from
contacts in Somalia and government technical monitors. However, restrictions on travel limit the
unit’s ability to adequately assess the impact of assistance on AMISOM and TFG capacities.

        The Department furnishes two types of cash assistance. One type pays the salaries of
about 8,000 TFG troops in cash every 2 months using a contracted commercial firm. This
program, which totals about $8.4 million per year and is managed by the Bureau of African
Affairs, has helped enhance the TFG’s capabilities to counter the threat posed by al-Shabaab.
The Somalia Unit must approve a list of payees supplied by the TFG, and a committee of
AMISOM officers and contract employees witness payments to individual TFG soldiers. The
lack of a biometric database, or Somali photo identity documents, makes it impossible to verify
whether only authorized TFG personnel are receiving payment. The unit has received some
anecdotal information that some pay recipients may not be eligible for payments because they do
not have proper photo identification, but the Department has not addressed this vulnerability.

Recommendation 4: The Bureau of African Affairs, in coordination with the Somalia Unit,
should implement a plan to confirm the identities of Transitional Federal Government troops that
receive payments funded by the United States. (Action: AF, in coordination with the Somalia
Unit)


                                          7
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The second type of Department-funded cash assistance consists of 10 self-help and
human right grants furnished to nongovernmental organizations in Somalia. The total
expenditure for all grants is less than $100,000. The USAID East Africa Regional office
manages funds for the unit and engages two organizations working in Somalia to supply
quarterly monitoring reports. The unit received adverse information about a grantee and was
attempting to substantiate the negative information.

Public Diplomacy

        Conducting public diplomacy is challenging in a country where the United States has no
embassy and access is extremely limited. The unit’s public affairs section consists of one officer
and two locally employed staff assistant positions, one of which was vacant at the time of the
inspection. The section has found creative and entrepreneurial ways to convey policy messages,
support stabilization and democratization, and to conduct education and exchange programs by
working through Somalia organizations and USAID partners, and tapping into U.S. military and
counterterrorism funding. The section works closely with USAID, Embassy Nairobi’s Military
Information Support Team, and the Combined Joint Task Force–Horn of Africa and holds
regular coordination meetings with them to facilitate information sharing and mutual support.
Cooperation between the public diplomacy staffs of the Somalia Unit and Embassy Nairobi’s
public affairs section is good. The public affairs section also receives good support from a public
diplomacy desk officer in Washington who is dedicated to Somalia issues, but this position is
temporary. As a result, it is uncertain whether the Department will continue to provide adequate
support to the unit’s public affairs section.

       Given the difficulties of programming in Somalia, the public affairs section budget of
approximately $160,000 is adequate. If increased travel and program activity in Somalia
becomes possible, the section budget may need to be increased to respond to new requirements
and opportunities.

Cultural Affairs Programs and Grants

        The limited ability of the public diplomacy staff to travel to Somalia is the unit’s biggest
obstacle to carrying out educational, cultural, and professional exchange programs. The public
affairs officer has twice travelled to Somalia over his 21-month assignment in Nairobi. On a day
trip to Mogadishu, he conducted a press conference at the airport; he also made a 2-day trip to
Hargeisa to explore opportunities for cultural and educational exchanges. The locally employed
cultural assistant has not traveled to Somalia since starting employment in the section nearly 2
years ago.

        There is an American Corner at the University of Mogadishu that houses books,
computer equipment, and materials for use by Somalis. The public affairs staff advises the
Corner coordinator by phone and has provided training for him in Nairobi. With improvements
in security in Mogadishu, the section is encouraging the Corner to begin carrying out more
programs. However, the Corner’s Internet connection is poor and does not allow distance
learning programs or videoconferences. An upgraded Internet connection and equipment at the
American Corner would significantly advance U.S. public diplomacy objectives and facilitate
programming.
                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Recommendation 5: The Somalia Unit, in coordination with the Bureau of International
Information Programs, should seek funding to upgrade the Internet connection and equipment at
the American Corner in Mogadishu. (Action: Somalia Unit, in coordination with IIP)

        The 2009 memorandum of understanding governing the American Corner in Mogadishu
lapsed in 2010, and there is no documentation to show that the section renewed it. The Bureau
of International Information Programs requires memoranda of understanding for American
Corners to ensure that each party understands its responsibilities and commitments.

Recommendation 6: The Somalia Unit , in coordination with the Bureau of International
Information Programs, should renew the memorandum of understanding for the American
Corner in Mogadishu. (Action: Somalia Unit, in coordination with IIP)

       The cultural assistant is scheduled to receive training on the International Visitor and
Exchange Visitor Data Base. The section expects that it will soon fill a locally employed
information assistant position, and the incumbent would benefit from further training. The OIG
team counseled the unit about developing a training plan for its locally employed staff.

         Grants accounted for more than half of the public diplomacy budget in FY 2011. Due to
extended staffing gaps, the section had not, at the time of the inspection, issued any FY 2012
grants. Monitoring grants is a special challenge because of the prevalence of corruption in
Somalia and the staff’s inability to travel there. Section staff has made a strong effort to monitor
the grants for fraud and waste, relying on trusted personal contacts and people working in
Somalia for other organizations, such as USAID partners, to check on grant-funded activities. It
is often difficult to get program and financial reports from grantees, and although the staff has
tried to obtain such reports, many grant files lack them. The OIG team advised the staff about
alternate ways to document program completion.

        The Bureau of African Affairs has given the public affairs section a mandate to explore
nontraditional public diplomacy opportunities, and the section has issued a number of public
diplomacy grants for projects that had no American component or connection, such as vocational
training, small-business start ups, or orphan education. These projects were consistent with
overall mission goals but did not always meet the criteria of the Fulbright-Hays Act of advancing
mutual understanding. Other sources of funding would have been more appropriate. The OIG
team discussed with the section staff ways to incorporate mutual understanding elements into
grants, even when a strong U.S. brand may not be appropriate in the Somalia context.

       Informal Recommendation 4: The Somalia Unit should include mutual understanding
       elements in its grants.

        The OIG team examined a sampling of grants files and found grantee signatures missing
without explanation, no certifications of funds available, and a grant period that was too short to
cover the full period of activity. Guidance in the Department’s Grants Policy Directive provides
specific guidance on grants files.


                                           9
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

          Informal Recommendation 5: The Somalia Unit should document grants in accordance
          with the Department’s Grants Policy Directives.

Information Outreach

        The section actively engages with journalists and works closely with USAID’s East
Africa Regional office on its communications efforts. A 10-month vacancy in the locally
employed information assistant position has impeded information outreach efforts. The section
and Embassy Nairobi’s human resources office did not coordinate on the most effective way to
advertise for the position. As a result, no suitable candidate has applied for the vacant position.
The OIG team made an informal recommendation on this issue in the 2012 Embassy Nairobi
inspection report. 1

        The public affairs section maintains a Web site for the U.S. Virtual Presence Post
Somalia. The section has used Content Management System staff in Washington to keep the
Web site’s basic information about the Somalia Unit current. However, because the section
lacks trained staff, the Web site’s regional news content is out-of-date.

          Informal Recommendation 6: The Somalia Unit should provide training to staff on the
          Content Management System.

        The public diplomacy section coordinates well on social media efforts with the Center for
Strategic Counterterrorism Communications in Washington. The section contributes items to the
center’s Somali language Facebook page, and it provides valuable input to the center regarding
social media strategies and whether to highlight particular USAID projects in Somalia. The
section also uses Twitter to push out messages on U.S. policy, but the Somalia Unit does not
have its own Facebook page because of a lack of staff to manage it. The OIG team encouraged
the section to set up a Somalia Unit Facebook page when staffing permits.

Outreach to Ethnic Somalis in Kenya

        Until May 2011, the section conducted public diplomacy outreach to Somali refugees and
other ethnic Somalis living in Kenya. The goal was to counter extremist ideology and promote
reconciliation, good governance, democracy, and mutual understanding. This outreach conveyed
U.S. public diplomacy messages into Somalia through the refugee community’s close
connections to family and friends in Somalia. Public diplomacy outreach to the Somali diaspora
in Kenya is not a priority for Embassy Nairobi, which has also curtailed the activities of the
Somalia Unit within Kenya. As a result, outreach to the Somali diaspora and refugees has
declined significantly despite Washington views that such outreach is an important public affairs
priority.

Recommendation 7: The Somalia Unit, in coordination with Embassy Nairobi and the Bureau
of African Affairs, should implement a formal and practical arrangement for conducting public
diplomacy activities aimed at Somali refugees and residents in Kenya. (Action: Somalia Unit, in
coordination with Embassy Nairobi and AF)

1
    OIG Inspection of Embassy Nairobi, Kenya, Report Number ISP-I-12-38A, August 2012.
                                               10
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



       The Embassy Nairobi inspection report contains a parallel recommendation.

Administrative Issues

         The staffing pattern lists the section head of the public affairs section as a public
diplomacy officer because the position was originally located within the Embassy Nairobi public
affairs section. However, the position reports directly to the Special Representative and his
deputy, controls a program and representational budget, drafts the public diplomacy strategy, and
has the other responsibilities of a public affairs officer. The Somalia Unit’s program account,
rather than the unit’s public diplomacy account, pays the salary of the locally employed cultural
assistant in the section.

Recommendation 8: The Bureau of African Affairs, in coordination with the Office of Policy,
Planning, and Resources for Public Diplomacy and Public Affairs, should review the public
diplomacy position in the Somalia Unit and designate it as a public affairs officer, if warranted.
(Action: AF, in coordination with R/PPR)

Recommendation 9: The Bureau of African Affairs should transfer funding for the cultural
affairs assistant in the Somalia Unit from the program account to the public diplomacy account.
(Action: AF)

Resource Management
       Embassy Nairobi provides management and security support for the Somalia Unit, and
the 2012 OIG inspection report on Embassy Nairobi covers these issues. The resource
management chart in the Embassy Nairobi report includes the Somalia Unit.

Consular Affairs
         Somalia-related consular activities are the responsibility of the Embassy Nairobi consular
affairs section. The Embassy Nairobi inspection report addresses consular activities in
connection with Somalia.




                                          11
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Formal Recommendations
Recommendation 1: The Somalia Unit, in coordination with Embassy Nairobi and the Bureau
of African Affairs, should convene a working group on Kenyan engagement and interests in
Somalia that would include representatives of the Somalia Unit and appropriate embassy
elements, including the Defense attaché office, and would focus on enhancing collaborative
activities between the two missions. (Action: Somalia Unit, in coordination with Embassy
Nairobi and AF)

Recommendation 2: The Somalia Unit, in coordination with Embassy Nairobi, should provide
guidance to staff about the use of record email to report information that must be preserved in
accordance with Federal Records Act and Department regulations. (Action: Somalia Unit, in
coordination with Embassy Nairobi)

Recommendation 3: The Bureau of Diplomatic Security, in coordination with the Somalia
Unit, Embassy Nairobi, and the Bureau of African Affairs, should assess and, if justified,
recommend to the Under Secretary for Management ways to accelerate the procedures for
approving travel to Somalia. (Action: DS, in coordination with the Somalia Unit, Embassy
Nairobi, and AF)

Recommendation 4: The Bureau of African Affairs, in coordination with the Somalia Unit,
should implement a plan to confirm the identities of Transitional Federal Government troops that
receive payments funded by the United States. (Action: AF, in coordination with the Somalia
Unit)

Recommendation 5: The Somalia Unit, in coordination with the Bureau of International
Information Programs, should seek funding to upgrade the Internet connection and equipment at
the American Corner in Mogadishu. (Action: Somalia Unit, in coordination with IIP)

Recommendation 6: The Somalia Unit , in coordination with the Bureau of International
Information Programs, should renew the memorandum of understanding for the American
Corner in Mogadishu. (Action: Somalia Unit, in coordination with IIP)

Recommendation 7: The Somalia Unit, in coordination with Embassy Nairobi and the Bureau
of African Affairs, should implement a formal and practical arrangement for conducting public
diplomacy activities aimed at Somali refugees and residents in Kenya. (Action: Somalia Unit, in
coordination with Embassy Nairobi and AF)

Recommendation 8: The Bureau of African Affairs, in coordination with the Office of Policy,
Planning, and Resources for Public Diplomacy and Public Affairs, should review the public
diplomacy position in the Somalia Unit and designate it as a public affairs officer, if warranted.
(Action: AF, in coordination with R/PPR)

Recommendation 9: The Bureau of African Affairs should transfer funding for the cultural
affairs assistant in the Somalia Unit from the program account to the public diplomacy account.
(Action: AF)


                                         12
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Somalia Unit should implement steps to improve internal
communication among staff.

Informal Recommendation 2: The Somalia Unit should review staff portfolios and reallocate
responsibilities to eliminate redundancies, balance the workload, and increase efficiency.

Informal Recommendation 3: The Somalia Unit should report on the use of child soldiers in
Somalia and on negotiations concerning the Transitional Federal Government’s adoption and
implementation of an action plan to end the practice.

Informal Recommendation 4: The Somalia Unit should include mutual understanding
elements in its grants.

Informal Recommendation 5: The Somalia Unit should document grants in accordance with
the Department’s Grants Policy Directives.

Informal Recommendation 6: The Somalia Unit should provide training to staff on the
Content Management System.




                                        13
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                                             Name     Arrival Date
Ambassador                                              James Swan       July 2011
Deputy Chief of Mission                                  Cheryl Sim      July 2010
Chiefs of Sections:
  Political/Economic                              Douglas Meurs          Aug 2011
  Public Affairs                                 Matthew Goshko          Aug 2010
Other Agencies:
  Department of Defense                         LTC Jeff McEvilly        Aug 2011
  U.S. Agency for International                    Larry Meserve         Dec 2006
    Development East Africa
    Region




                                       14
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
AMISOM          African Union Mission in Somalia

Department      Department of State

OIG             Office of Inspector General

TFG             Transitional Federal Government

UNPOS           UN Political Office for Somalia

USAID           U.S. Agency for International Development




                            15
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
